<html>
<title> - [H.A.S.C. No. 111-16]CAN DOD TRAVELERS BOOK A TRIP? DEFENSE TRAVEL SYSTEM UPDATE</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


                                     

                         [H.A.S.C. No. 111-16]
 
      CAN DOD TRAVELERS BOOK A TRIP? DEFENSE TRAVEL SYSTEM UPDATE

                               __________


                                HEARING

                               BEFORE THE

               OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                             MARCH 5, 2009

                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     



                  U.S. GOVERNMENT PRINTING OFFICE
48-777                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



               OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

                     VIC SNYDER, Arkansas, Chairman
JOHN SPRATT, South Carolina          ROB WITTMAN, Virginia
LORETTA SANCHEZ, California          WALTER B. JONES, North Carolina
ELLEN O. TAUSCHER, California        MIKE ROGERS, Alabama
SUSAN A. DAVIS, California           TRENT FRANKS, Arizona
JIM COOPER, Tennessee                CATHY McMORRIS RODGERS, Washington
JOE SESTAK, Pennsylvania             DOUG LAMBORN, Colorado
GLENN NYE, Virginia                  DUNCAN HUNTER, California
CHELLIE PINGREE, Maine
                Ashley Alley, Professional Staff Member
                Thomas Hawley, Professional Staff Member
                    Sasha Rogers, Research Assistant



                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2009

                                                                   Page

Hearing:

Thursday, March 5, 2009, Can DOD Travelers Book a Trip? Defense 
  Travel System Update...........................................     1

Appendix:

Thursday, March 5, 2009..........................................    23
                              ----------                              

                        THURSDAY, MARCH 5, 2009
      CAN DOD TRAVELERS BOOK A TRIP? DEFENSE TRAVEL SYSTEM UPDATE
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Snyder, Hon. Vic, a Representative from Arkansas, Chairman, 
  Oversight and Investigations Subcommittee......................     1
Wittman, Hon. Rob, a Representative from Virginia, Ranking 
  Member, Oversight and Investigations Subcommittee..............     2

                               WITNESSES

Fisher, David M., Director, Business Transformation Agency, 
  Department of Defense..........................................     5
Khan, Asif A., Director, Financial Management and Assurance, U.S. 
  Government Accountability Office...............................     8
Mitchell, Pamela S., Director, Defense Travel Management Office, 
  Department of Defense..........................................     4
Moore, Dr. William B., Vice President, LMI Government Consulting.     7

                                APPENDIX

Prepared Statements:

    Fisher, David M., joint with Pamela S. Mitchell..............    33
    Khan, Asif A.................................................    54
    Moore, Dr. William B.........................................    48
    Snyder, Hon. Vic.............................................    27
    Wittman, Hon. Rob............................................    30


Documents Submitted for the Record:

    March 17, 2009 letters from Dr. Snyder and Mr. Wittman to the 
      Secretaries of the Air Force, Army, and Navy requesting 
      information on service legacy travel systems...............    75
    April 27, 2009 letter from John W. McNair, Acting Assistant 
      Secretary of the Navy, answering the March 17, 2009 letter 
      on behalf of the Secretary of the Navy, with enclosures....    78
Witness Responses to Questions Asked During the Hearing:

    Mrs. Davis...................................................    86
    Dr. Snyder...................................................    85
    Mr. Wittman..................................................    86

Questions Submitted by Members Post Hearing:

    Dr. Snyder...................................................    89
      CAN DOD TRAVELERS BOOK A TRIP? DEFENSE TRAVEL SYSTEM UPDATE

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                 Oversight and Investigations Subcommittee,
                           Washington, DC, Thursday, March 5, 2009.
    The subcommittee met, pursuant to call, at 1:04 p.m., in 
room 2212, Rayburn House Office Building, Hon. Vic Snyder 
(chairman of the subcommittee) presiding.

  OPENING STATEMENT OF HON. VIC SNYDER, A REPRESENTATIVE FROM 
 ARKANSAS, CHAIRMAN, OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

    Dr. Snyder. The hearing will come to order. Good afternoon. 
Welcome to the Subcommittee on Oversight and Investigations 
hearing on updates to the Defense Travel System, the DTS 
system. The subcommittee last held a hearing on this issue in 
April of 2008, just short of a year ago. As we said at that 
time, we thought this topic was an important one. It certainly 
is an expensive one. And we are here to get an update on the 
progress that has been made, as we said we would last year.
    And there is a lot of challenges that continue. And I think 
anyone would agree with that in the Defense Travel System. DTS 
is supposed to be the primary end-to-end travel system for 
Department of Defense (DOD) personnel. The Department of 
Defense spends between 9 and $10 billion on defense travel 
every year, while the system has been plagued by developmental 
problems, operational test failures, premature deployments, 
functionality problems, low usage, and general user 
dissatisfaction. The importance of this kind of issue is that 
60 percent of the Pentagon's procurement budget, the 
acquisition budget, does not go into equipment, the sexy items 
that get all the attention like rifles and tanks and planes, it 
goes into services contracts like the Defense Travel System we 
are considering today.
    And it is very important, in a bipartisan manner, to this 
Congress that we find out how money is being spent and figure 
out the most efficient way to accomplish the goals of the 
American people. It has been reported that even though the 
Defense Travel System is operational in over 95 percent of DOD 
locations, the Department is still allowing travelers to use 
legacy systems. This is an inefficient waste of taxpayer money, 
and the Department needs to ensure that all personnel who 
should be using DTS are, in fact, using it. This committee has 
heard repeated concerns from DOD travelers that DTS is a 
confusing, complicated system. In fact, a usability study 
conducted last year by LMI Government Consulting showed that 
only 42 percent of DOD travelers could successfully complete a 
task in DTS, whether booking a trip, canceling one, or creating 
a voucher.
    This means over half of the travelers who were surveyed 
were unable to complete the basic tasks necessary for travel. 
DOD has spent a lot of money and time on implementation of the 
Defense Travel System, and it must become the single 
streamlined travel management system that was intended, that we 
all want. It is central that this is accomplished in a way that 
is both cost-efficient and user friendly. We hope all of our 
witnesses can help illuminate how much progress has been made 
toward achieving this goal, how far the Department still has to 
go, and where we can expect to be at this time next year. We 
will hear from two witnesses from the Department's Travel 
Management Office (DTMO) and Business Transformation Agency who 
will tell us what kind of progress has been made with DTS in 
the past year and what current efforts are underway to improve 
the system.
    We will also hear from Logistics Management Institute (LMI) 
Government Consulting about the results of the DTS usability 
study they conducted last year for the Department, any ideas 
they may have about how to make DTS more user friendly for 
travelers. Finally, we will hear from the Government 
Accountability Office (GAO), which has done extensive work on 
the reliability and cost efficiency of DTS. In 2006, GAO issued 
two reports on DTS that included 14 recommendations for 
improvement. GAO will testify today on the implementation of 
those recommendations. It will also tell us how far they think 
the Department has to go to make sure that DTS is a reliable 
system for DOD for all travelers and administrators.
    Our panel of witnesses today consists of Ms. Pam Mitchell, 
the Director of the Defense Travel Management Office, the 
Department of Defense; Mr. David Fisher, the Director of the 
Business Transformation Agency at the Department of Defense; 
Dr. William Moore, the Vice President of LMI Government 
Consulting; and Mr. Asif Khan--did I say that correctly?
    Mr. Khan. Asif Khan.
    Dr. Snyder. Asif Khan, Director of the Financial Management 
and Assurance, Government Accountability Office. We appreciate 
you all being here. And I will turn now to Rob Wittman for his 
opening comments. And this is actually our first formal 
hearing, isn't it, the beginning of this new Congress. And we 
are very, very pleased to have Mr. Wittman on the committee.
    [The prepared statement of Dr. Snyder can be found in the 
Appendix on page 27.]

STATEMENT OF HON. ROB WITTMAN, A REPRESENTATIVE FROM VIRGINIA, 
   RANKING MEMBER, OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

    Mr. Wittman. Well, thank you, Chairman Snyder. I really 
appreciate it. It is an honor to be here with you and serving 
as the ranking member. I want to say good afternoon for our 
witnesses. Thank you for taking time out of your busy schedules 
to join us today. We look forward to hearing you. And as 
Chairman Snyder pointed to, before I begin to comment about 
today's hearing, I would like to note my appreciation in the 
bipartisan spirit in which Chairman Snyder has reached out to 
make sure that this committee works in a collaborative effort 
in making sure that we look at all the different things that 
are involved with the House Armed Services Committee and 
finding ways that we can improve the Department of Defense and 
other government programs.
    So Chairman Snyder, thank you. It is a great leadership on 
your behalf and great way to run a committee. So I appreciate 
that. This afternoon we return to a topic that we examined last 
year, and that is the Defense Travel System, or DTS. DTS was 
initiated more than 10 years ago to better account for DOD 
travel costs. And in other words, the initial focus was to 
benefit the accountant, not the user. And while accountability 
is a worthy objective, the early efforts gave little heed to 
user friendliness, leading to lots of frustration, and 
ultimately user rejection of the system. And since travel 
processed online is substantially cheaper to book than travel 
booked the traditional way, this failure to consider user 
friendliness was counterproductive. Indeed, widespread user 
frustration has brought this issue to the subcommittee's 
attention.
    And the average sergeant and captain in the field was 
literally fed up with being ordered to use a system that did 
not produce results. And we heard loud and clear that 
frustration. And we are looking at ways we can overcome that. I 
understand that DTS is continuing to make progress in this 
regard, and that usage statistics and user acceptance has 
improved since last year. And I applaud all the efforts to make 
the system work better and to make it more user friendly. And 
as we all know, we are encouraged any time those sorts of 
improvements happen, but we understand that there are still 
some ways that we can improve further.
    And daunting as the DTS mission may be, given all the 
different scenarios and travel rules that DOD travelers 
encounter, we all know from personal experience that online 
systems that are hard to use will not be used. But again, I am 
encouraged by your progress and would like to know how and when 
you expect to complete the job and shut down redundant legacy 
systems. And again, I want to thank our witnesses for being 
here today, and I look forward to your testimony. And with 
that, Mr. Chairman, I yield back.
    [The prepared statement of Mr. Wittman can be found in the 
Appendix on page 30.]
    Dr. Snyder. Thank you, Mr. Wittman. We will now go to your 
opening statements. We are going to have a light go on here 
that will turn red at five minutes. We will put the same clock 
on ourselves. And most of us will pretty much stop at the end 
of the five minutes. If there is things you need to tell us out 
of the five minutes, you should go ahead and do that, but I 
want you to have an idea about the length of time. It is my 
understanding, Ms. Mitchell and Mr. Fisher, you all have a 
joint statement. And we will begin with you, and then we will 
go to Dr. Moore and Mr. Khan. And I don't want to be tacky, but 
I just can't resist, I understand in the spirit of 
transparency, the first draft you sent over of your statement 
actually said at the top to the Office of Management and Budget 
(OMB). And I appreciate that candor, that your statements did 
have to be cleared by OMB. So you should feel free, at my 
request, to share with us anything they edited out or perhaps 
more importantly they added that you think we ought to know 
about. Who, Ms. Mitchell, are you the lead?

   STATEMENT OF PAMELA S. MITCHELL, DIRECTOR, DEFENSE TRAVEL 
            MANAGEMENT OFFICE, DEPARTMENT OF DEFENSE

    Ms. Mitchell. Chairman Snyder, Congressman Wittman, and 
distinguished members of the subcommittee, thank you for the 
opportunity to be here today to update you on progress the 
Department of Defense has made with the Defense Travel System. 
In the fall of 2006, Dr. David Chu, the Under Secretary of 
Defense for Personnel and Readiness, stated to the Senate Armed 
Services Committee, commercial travel within the Department, 
including DTS, is under new management. The new management to 
which he referred evolved into an extremely effective 
partnership between the Defense Travel Management Office, DTMO, 
and the Business Transformation Agency, or the BTA. Three years 
ago the Travel Assistance Center did not exist. Today it is a 
single one-stop shop helping DOD travelers around the world 24 
hours per day, 7 days per week. Three years ago there was no 
customer satisfaction program, no meaningful opportunity for 
users to provide feedback, and no reliable means of effectively 
gauging customer opinion. Today the Department is well on its 
way to integrating customer feedback into DTS improvements and 
the entire scope of travel.
    A key component of this program is the QuickCompass survey, 
a new scientific polling methodology. The 2008 QuickCompass is 
our baseline going forward, and provides early evidence that 
the Department's efforts to increase usability and 
functionality are working. For example, 69 percent of DTS users 
in this survey find DTS easy to use when making airline 
reservations. Seventy-nine percent find it easy to use for 
rental car reservations. Seventy-one percent of those 
responding were either satisfied or very satisfied with expense 
reimbursement time, which is three times faster than the 
statutory requirement.
    And 46 percent noted they would rather use DTS for making 
reservations than call their commercial travel office agent. 
Three years ago, DTS processed about 257,000 temporary duty, or 
TDY vouchers during the first quarter of the fiscal year. 
During the first quarter of this fiscal year, DTS processed 
almost 867,000 vouchers, a 237.4 percent increase. Three years 
ago, the Department lacked a comprehensive training program for 
travelers. Today the program includes a variety of classes, 
with more on the horizon.
    Since July 2008, five new Web-based courses have provided 
traveler and instructor knowledge to over 38,000. Twenty-three 
distance learning courses were launched in early 2008 and are 
in active use. Three years ago, 100-plus commercial travel 
office contracts were managed by over 50 organizations across 
the Department. Today, the DTMO manages 31 small business 
contracts, and has awarded an umbrella contract to 8 commercial 
travel vendors. We have awarded 7 of 11 planned task orders 
under this contract, and expect to award the 4 remaining by the 
end of this year. Three years ago, usability and additional 
capability were only topics of discussion.
    Today, the enhanced reservation module in DTS, commonly 
referred to as Reservation Refresh, is regarded as a 
significant improvement for travelers. Other important, more 
recent enhancements include an easy way to request commercial 
travel agent assistance from within the system and a simple 
method to cancel a trip. Further, the results of the recent LMI 
usability review will guide Department improvement of the user 
interface over the next two years. Three years ago, the focus 
was on basic business travel in DTS, with the system supporting 
27 of the 73 travel types identified by the Institute for 
Defense Analysis. Today, work is underway to implement 
capability for those remaining. By October of this year, we 
plan for DTS to support 66 of the 73 travel types. The 
Department has charted an ambitious path ahead as we continue 
to improve the Defense Travel System. Thank you for your 
continued support, and I look forward to answering your 
questions.
    [The joint prepared statement of Ms. Mitchell and Mr. 
Fisher can be found in the Appendix on page 33.]
    Dr. Snyder. Thank you, Ms. Mitchell. I should have said you 
all have a joint written statement, but you each are doing oral 
statements. Mr. Fisher.

STATEMENT OF DAVID M. FISHER, DIRECTOR, BUSINESS TRANSFORMATION 
                 AGENCY, DEPARTMENT OF DEFENSE

    Mr. Fisher. Thank you, Chairman Snyder, Congressman 
Wittman, members of the subcommittee. It is a pleasure to be 
here again to discuss our continued progress with the Defense 
Travel System. As Ms. Mitchell has detailed, both usage and 
satisfaction with DTS continue to increase, as does the savings 
that increased usage brings to the Department of Defense. 
Reservation percentages, vouchers processed, percent of 
temporary duty (TDY) travel managed, all the metrics indicate 
increased adoption of the tool. And the recent survey provides 
another clear indicator that user satisfaction with the system 
continues to improve as well. And since the economic model for 
DTS is predicated upon a usage-based savings, these metrics all 
indicate increased bottom line success. Now, our colleagues at 
GAO continue to provide valuable independent oversight and 
assessments of DTS. We appreciate their acknowledgment of some 
of this progress. And the preliminary results from their 
current audit indicate we still have some room for improvement, 
specifically in the area of thoroughness of testing. And that 
point is well taken. It has been an additional focus area for 
us over the last few months. And it is a recommendation that we 
take to heart and continue to look at. The Business 
Transformation Agency is now 3\1/2\ years old, and DTS is one 
of the 27 inherited systems that are in our portfolio. I 
believe it is one of the best examples of the value that we 
have been able to bring to previously troubled enterprise 
systems.
    At BTA we have adopted a set of guiding principles, 
something we call the six S's of success. And I would like to 
spend just a couple of minutes talking about DTS in the context 
of those six guiding principles. Those are strategic alignment, 
stovepipe elimination, standardize, streamline, simplify, and 
systems and services. DOD-wide strategic alignment around DTS 
is finally occurring after a long period of resistance. 
Initially the tool was clumsy to use. It was geared more to 
back-end financing processing than up-front travel management 
by DOD travelers. Usage and satisfaction were both low.
    Beginning with the 2007 implementation of our Reservation 
Refresh module, alignment began to come into being. The tool 
became easier to use, adoption increased, and the mandate 
policy was issued from the Office of the Secretary of Defense 
(OSD). Alignment is now in place between the finance and the 
travel communities, and increasingly with the DOD individual 
traveler as well, for DTS is the tool for travel management in 
the Department. Stovepipe elimination. This has also occurred 
in the last couple of years as the seamless integration between 
the travel and finance communities has been accomplished in 
DTS. Both communities needed individual capabilities to be 
implemented without sacrificing the ability for tight 
integration.
    The updates to DTS in the last two years have facilitated 
that, breaking down the functional stovepipes that had hindered 
effective processing of individual travel transactions. 
Standardize. Absolutely. The Department has used DTS to 
standardize business rules and policies as enforced by the tool 
itself for most of our TDY travel. Personnel and Readiness 
(P&R) owns the policies, BTA implements them and the tool for 
travelers to use. DTS now ensures that our DOD travelers see 
the same available inventory, the same rates, and follow the 
same business rules no matter who uses the tool or where. DTS 
use gives us a high degree of confidence about compliance to 
travel standards across the Department. Streamline. Again, 
absolutely. The results are in our metrics. Payment for travel 
vouchers is provided in about a week, beating the requirement 
by three times, and besting the old manual processes by even 
more.
    This is one of the greatest benefits for our people, timely 
and accurate pay for travel. Now, could we do more in the area 
of streamlining? I believe we can, but that is dependent upon 
the next S, which is simplify. This is the area where we have 
made the least progress in trying to optimize the user 
experience of our travelers. DTS remains quite complex in some 
areas. It inhibits our ability to streamline some of the 
elements of that front-end travel process. If we could simplify 
the rules that we need to embed in the tool we could simplify 
and streamline the process better for our travelers. I believe 
we collectively have more work to do in this area.
    Finally, in terms of systems and services, DTS is both. It 
provides a capability which embodies most of our guiding 
principles. We will continue to add to both the capability of 
the tool and the usability of the tool in part based on the 
excellent recommendations from the study from LMI. These 
ongoing enhancements, consistent with our guiding principles, 
will enable the Department to achieve our seventh S, which is 
savings. We can clearly make the case that DTS saves money for 
the Department.
    Each voucher processed saves on the back-end transaction 
costs to make that payment. Savings are also accruing on the 
front end of the travel reservation process, as the new 
contracts with our commercial travel partners embed lower fees 
when most of that work is done in DTS. Every reservation made, 
every voucher paid through DTS, this saves us money. Adoption 
of the six S's through our close partnership with the DTMO has 
enabled us to improve this tool, improve the experience for our 
travelers, and improve the bottom-line savings for the 
Department. And we are not done. We are continuing to update 
DTS to account for even more types of travel, and continuing to 
make improvements in the travel experience. And we believe 
these steps will continue to add to an already vastly improved 
DTS. Mr. Chairman, thank you for the opportunity to be here 
today. I do look forward to answering your questions.
    [The joint prepared statement of Mr. Fisher and Ms. 
Mitchell can be found in the Appendix on page 33.]
    Dr. Snyder. Thank you, Mr. Fisher. Dr. Moore.

    STATEMENT OF DR. WILLIAM B. MOORE, VICE PRESIDENT, LMI 
                     GOVERNMENT CONSULTING

    Dr. Moore. Good afternoon, Mr. Chairman, members of this 
distinguished subcommittee. My name is Bill Moore, and I am a 
vice president of the Logistics Management Institute, known as 
LMI. Thank you for inviting me to testify before the 
subcommittee. Your letter of invitation asked for a discussion 
on the Defense Travel System usability study that LMI completed 
in September of 2008. You have asked that I focus on LMI's 
findings, recommendations, and the improvement strategy 
contained in our study. Following an independent study of DTS 
by the Institute for Defense Analysis, the Defense Travel 
Management Office asked LMI to assess the usability of the 
system for various types of users performing various tasks. I 
will provide a brief overview of our approach to that review, 
discuss our findings, and end with our recommendations for 
improving the usability of DTS. Our team conducted usability 
testing with approximately 280 participants, having a mix of 
demographic characteristics and level of experience with 
computers and the Internet.
    The participants included military, civilian users from the 
four military services, as well as other DOD components. We 
grouped participants into four categories: travelers, and three 
separate administrative functions. Participants in each group 
attempted to complete several role-specific scenarios, 
representing common tasks such as setting up a trip, canceling 
or modifying portions of a trip, or approving vouchers. We 
observed their performance of the tasks, captured usability 
metrics with automated software, and gathered participant 
comments and suggestions. Our findings fall into three broad 
categories: Performance-based issues that shows statistical 
differences in success rates based on user demographics; DTS-
wide issues that affect the design of the overall system; and 
scenario-based issues stemming from specific tasks given to 
users. We found large differences in overall success rates for 
different types of users and the kinds of tasks they performed.
    The average success rate for travelers was only 42 percent, 
with a success rate for the remaining three roles ranging from 
61 to 88 percent. In general, we found that many ordinary tasks 
are difficult, require users to understand complex underlying 
business processes, invite confusion and error, lack sufficient 
online help, and are hampered by poor interface design. On the 
basis of our findings, we developed recommendations in three 
broad areas: Performance-based recommendations, which include 
making changes to the interface to better accommodate less 
experienced users; improving opportunities for training and 
system learnability; and ensuring that DTS provides enough 
feedback so that users know whether they have successfully 
completed a task.
    System-wide recommendations are to design DTS to be more 
like a traditional Web application that functions within one 
browser window, complete with a back button and a link to home. 
Make the system more like commercial travel sites, with which 
many users are already familiar. Ensure that the welcome screen 
has links that allow travelers to interact with trip documents. 
Revise the format of travel documents and organization of 
tasks. Revise the global navigation throughout the site. Make 
link labels clear, unambiguous, and intuitive, and improve the 
help information for each screen. We also make specific 
recommendations for several task scenarios such as trip 
cancellations and updating user profiles. Future improvements 
should be user-centered, data-driven, and research-based. The 
focus of initial design efforts should be on the scenarios 
where users have the most difficulty are the most critical, and 
have the greatest impact on user performance. In particular, 
DTMO should focus first on the travelers' portion of the 
system. We provided a strategic implementation plan that 
outlines the iterative steps for changing critical portions of 
DTS, assessing the results, and then using the results to guide 
further refinements. By making changes to the system and 
continually measuring progress, DTMO has a much greater chance 
of ultimately improving the usability of the DTS on the 
dimensions of user effectiveness, user efficiency, and user 
satisfaction with the system. Thank you once again for the 
opportunity to appear before you. I would be happy to answer 
any questions you may have.
    Dr. Snyder. Thank you.
    [The prepared statement of Dr. Moore can be found in the 
Appendix on page 48.]
    Dr. Snyder. Mr. Khan.

 STATEMENT OF ASIF A. KHAN, DIRECTOR, FINANCIAL MANAGEMENT AND 
        ASSURANCE, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Khan. Good afternoon, Mr. Chairman, and the members of 
the subcommittee. Thank you for the opportunity to discuss our 
prior work and our ongoing review of the Defense Travel System. 
Your subcommittee has been at the forefront in addressing 
issues related to DOD travel management issues. Our testimony 
today will be based on the status of DOD three actions. The 
first action that we will be discussing is the implementation 
of GAO's prior recommendations. The second one is DOD's 
progress in phasing out legacy travel systems. And the third 
one is the cost savings associated with electronic versus 
manual voucher processing. After completing additional work, we 
plan to issue a report on the status of DOD actions on GAO's 
prior recommendations for improving the Department's management 
and oversight of DTS to help ensure its success in the future.
    Mr. Chairman, GAO has made numerous recommendations to help 
the Department improve its oversight and implementation of DTS 
and related travel policies. We are currently reviewing the 
status of DOD actions to implement the recommendations in our 
January and September 2006 reports. My testimony today is based 
on this work. First, I would like to discuss the status of our 
prior recommendations. Our analysis indicates that of the 14 
prior recommendations, DOD has completed action on seven. The 
closed seven recommendations dealt with premium class travel, 
unused airline tickets, use of restricted airfare, proper 
testing of system interfaces, and streamlining certain travel 
processes such as approving travel vouchers for expenses. While 
DOD has made progress, there is still significant work to be 
done. Of the open seven recommendations, three relate to the 
adequacy of DTS requirements management and systems testing, 
three to DTS underutilization, and one to streamlining the 
process to reduce the need for hard copy receipts. Moving to my 
second point, the phasing out of legacy travel systems.
    A key component of DOD's travel transformation effort is 
the elimination of legacy travel systems. Our analysis shows 
the Department has not yet identified and validated the number 
of legacy travel systems currently being operated. We received 
inconsistent information on the number of systems in operation. 
According to DTMO, there are 23 legacy travel systems in 
operation. However, according to the military services, there 
are 12 legacy systems in operation, 10 of which were on the 
list provided by the DTMO. Without accurate information on 
DOD's legacy system, there is a risk of not fully achieving the 
goal of eliminating redundant travel management systems. It 
should be noted some existing legacy travel systems will 
continue to operate after DTS becomes fully operational. This 
is because the legacy travel systems have a functionality which 
will not exist in DTS.
    A prime example of this is permanent duty travel by 
civilians. Moving to the third point, the cost of electronic 
versus manual voucher processing, the continued use of legacy 
travel systems, particularly where DTS has been deployed, 
diminishes the savings through electronic voucher processing. 
We found it significantly cheaper to process a voucher 
electronically versus manually, a cost saving of almost $35 per 
voucher. Continued use by the military services of manual 
voucher processing diminishes the cost savings that could occur 
through the use of DTS.
    In conclusion, Mr. Chairman, transforming DOD's financial 
management and business operations is a challenge. However, it 
is necessary for effective and efficient business operations. 
DTS is intended to be the Department's comprehensive travel 
management across all locations and organizations within DOD. 
With over 3 million potential travel systems users, the sheer 
size and complexity of deploying DTS overshadows any similar 
effort in the private sector. DOD has made important progress. 
Nonetheless, standardizing business systems across the 
Department would be a key to saving billions of dollars 
annually.
    In closing, I commend your subcommittee for holding this 
hearing as a catalyst for improving the Department's travel 
management policies. Mr. Chairman, this concludes my prepared 
remarks. I would be pleased to answer any questions that you or 
any other members of the subcommittee may have. Thank you.
    [The prepared statement of Mr. Khan can be found in the 
Appendix on page 54.]
    Dr. Snyder. Thank you to all of you for your both written 
and oral statements today. As one little courtesy thing, if you 
see me reach and look for my BlackBerry, please forgive me. My 
wife is home with three two-month-old baby boys, and that is 
how she fires off her red flares from Little Rock. So we will 
put ourselves on the five-minute clock here and we will go 
around, I am sure, at least a couple times, if not more. I 
wanted to ask the question about Dr. Chu's memo from March 28th 
of 2008, which if it is not part of the record, we will make 
part of the record.
    And just the last paragraph that says, accordingly, 
pursuant to the authority conferred by Management Initiative 
Directive 921, DTS will be the single online travel system used 
by the Department. This mandate applies to all travel functions 
currently supported by the system, and those that will be 
supported in the future as they become available. And where I 
get confused is at the end of Ms. Mitchell and Mr. Fisher, at 
the end of your written statement you say, with continued 
progress it is expected that DTS will be DOD travelers' 
preferred method for making travel arrangements. Now, since 
when do they have a choice? What is this preferred method 
business? I don't care if they have a preferred method or not, 
I mean, there is a lot of things we do--when I fill out my 
vouchers I don't get a preference about, you know, which form I 
fill out to get my travel paid for here. I mean, what is this 
preferred method when you have that mandate?
    Ms. Mitchell. Mr. Chairman, the ``preferred'' is really a 
reference to the usability of the system. Certainly the mandate 
exists, and the services have, in fact, issued their own 
mandates. But we want to go beyond mandate. We want it actually 
to be the system they want to use because we have made those 
improvements for them.
    Dr. Snyder. All right. So that was a poor choice of words 
then in your statement, because it implies that they have a 
choice. But we would all agree, would we not, that there are 
clearly people out there that are making a choice that are 
using the legacy systems? Correct?
    Ms. Mitchell. Yes, sir.
    Dr. Snyder. That is they should be using the DTS system, 
but they continue to use the legacy system. Do you agree with 
that?
    Mr. Fisher. Sir, there are some.
    Dr. Snyder. How many?
    Mr. Fisher. I will defer to Ms. Mitchell on that. The point 
I want----
    Dr. Snyder. Let's hear from Ms. Mitchell then. Do you know? 
I don't think we know, do we?
    Ms. Mitchell. Sir, we are actually able now to publish 
quarterly metrics. We have been able to go--one of the points I 
would like to make is we all over time, certainly in the 
Department and I suspect you do also, hear a lot of anecdotes. 
One of the major things we have tried to do is move from the 
anecdotal to the empirical. And so we are now able to publish 
quarterly metrics that give us a lot of information on who is 
using the system and who is not.
    Dr. Snyder. Okay. How many people in the last quarter for 
which you have metrics arranged their travel on vouchers and 
all through a legacy system that should have been done through 
the DTS system because of Dr. Chu's mandate? How many is that?
    Ms. Mitchell. We know that for vouchers filed, which is our 
best measure of usage of the system, that as of December DTS 
was processing about 73 percent of those.
    Dr. Snyder. That doesn't answer the question, though, does 
it?
    Ms. Mitchell. Well, we know of the overall universe of TDY 
travel DTS processed 73 percent of that.
    Dr. Snyder. Okay. Of that universe, are 100 percent of 
those supposed to be processed by DTS.
    Ms. Mitchell. No, sir, 100 percent of those cannot be.
    Dr. Snyder. So then we don't know the answer to my question 
then, do we?
    Ms. Mitchell. Frankly, we do not know by shredding it out 
into the eaches how many of that 27 percent remaining could be 
processed into DTS. And that is because the legacy travel 
systems don't afford us that level of detail.
    Dr. Snyder. And the concern, I think, for the committee 
is--I can't remember if it is in your statement or in the 
background information--about the level of savings that occurs 
if somebody uses a DTS system, what is it, about $2.57 a pop? 
If somebody uses a manual voucher system it is $47? Or is that 
about the range? And so when you tell us that we don't know how 
many people are using the other systems, we are saying we don't 
know how many people are wasting $42 a pop of government money. 
Isn't that right? Isn't that what we are saying?
    Ms. Mitchell. We are saying that of that 27 percent who did 
not use DTS in December, we don't know how many of them could 
have used DTS.
    Dr. Snyder. Now, my time is winding down here, but one of 
the frustrations we have had is--can you just tick off for me 
right now the names and contractors of the legacy systems? Are 
there 12 of them or are there 23 or are there 31?
    Ms. Mitchell. Sir, we have reached out to GAO yesterday, 
because we believe we have identified at least most of the 
source of the confusion. We did provide a list of 23. However, 
there were redundancies in the list. Because across the 
services some of them used the same systems. The best 
information I have today, and let me just step back and say 
that the list that we have was provided by the services and 
validated through our governance process.
    So that is the list that we shared with the GAO. The list 
that GAO has, as was noted, 10 of those were on our list, two 
of those were new to us. And we have not had an opportunity, 
because we just got the list, to really be able to take a look 
at that and see what those two were or if they were overlooked 
at some earlier time. So what we believe right now is that it 
appears that there are 12 legacy systems that are currently 
still in existence processing travel.
    Dr. Snyder. Well, my time is up. I won't pursue this. But 
you know--and you all are good people here. And you are taking 
on a very difficult task, and have been for some years, but 
when I hear you say it appears to us there are these many 
legacy systems in an enterprise that is a $10-plus billion 
enterprise and we don't even know for sure--I mean like what 
happened? Did one of them get Harry Potter's invisibility cape 
and disappear? I mean we can't even tell how many legacy 
systems we have out there or how they are paid for or who the 
contractors are? I mean, I don't get it. I don't get it. Mr. 
Wittman, maybe you got it.
    Mr. Wittman. Thank you, Mr. Chairman. Ms. Mitchell, you 
heard from Dr. Moore about LMI's report and the 39 
recommendations contained within to enhance the usability of 
DTS. Can you give us your estimates about what the costs are 
associated with those particular improvements? How many can be 
incorporated into parts of the systems that are ongoing now, 
how much would be separate, and what the costs would be 
associated with those?
    Ms. Mitchell. We are going to approach usability 
essentially in four ways. One is incremental improvements that 
we have been making over time. One is when we release the 
permanent duty travel capability this fall, that is going to 
represent a major change in how users see the system for 
processing their PCS reservations and voucher. And then there 
will be two usability releases, one in fiscal year 2010 and one 
in fiscal year 2011 that will get larger. So for the fiscal 
year 2010 release specifically, our estimate at this point is 
that it will cost about $4 million. And that is a preliminary 
estimate, because a lot of analysis is still going on as to 
what that will really entail. I do not yet have an estimate for 
the second usability release.
    Mr. Wittman. Okay. So those two usability releases then 
will fully implement these 39 recommendations and allow you to 
accomplish the objectives of those recommendations?
    Ms. Mitchell. That is our intent, yes, sir.
    Mr. Wittman. Okay. And when you get the dollar amount on 
the second implementation of the usability function, if you 
could let us know that, that would be very helpful.
    Ms. Mitchell. Yes, sir.
    [The information referred to can be found in the Appendix 
on page 86.]
    Mr. Wittman. Another question is the Department told the 
subcommittee last year that it was performing a travel policy 
review in collaboration with the Government Services 
Administration (GSA) to look at the complexities of foreign 
travel, including the provisions of the Fly America Act. And I 
wanted to know has this review been completed? And if so, can 
you tell us about the findings? And in particular, were there 
any weaknesses identified in the Fly America Act that are 
allowing DOD passengers to fly on foreign carriers if they have 
U.S. partners versus foreign carriers who do not have U.S. 
partners but are less expensive?
    Ms. Mitchell. First of all, that phase of the travel policy 
review is complete, and we are pending the final report from 
LMI. There were three major recommendations that came out of 
that, one, to create a framework for proactive policy 
development. And one of the things that I think is important 
for me to note is that this review was conducted in partnership 
with GSA and the State Department, which is the first time this 
has happened in several decades. For creating that framework, 
one of those things, one of the underliers there is to 
strengthen the governance process across the Department. And in 
fact, GSA has taken that on, and we do participate in some new 
governance boards that they have set up.
    Another one is to enable data-driven business case 
development. And that goes back to my earlier comment about 
trying to move from anecdotal to empirical. And then lastly, to 
expand government-wide principles. For example, standardizing 
air travel and hotel standards across the government, as 
opposed to differences among agencies. Their second major 
recommendation was to simplify and streamline policy, to 
simplify reimbursements, and to submit a travel reform 
legislation package. We are actively working on both of those 
things in this currently phase two of the process. Their third 
major recommendation was to revise and standardize government-
wide regulations across the agencies and across military and 
civilian. So those are the results of that review. In answer to 
your question about the Fly America Act, the group did look at 
that. And across the government, the consensus was that the Fly 
America Act probably does need some revision to enable 
government travelers to take advantage of the most effective 
and efficient travel available.
    So we are continuing to look at that as we look at the 
broader recommendations, and will consider that for inclusion 
in the reform package that we submit.
    Mr. Wittman. Okay. So your recommendations as to how the 
Fly America Act should be revised to make sure that the most 
efficient use of funds and decision-making and travel can be 
implemented?
    Ms. Mitchell. Yes, sir.
    Mr. Wittman. Okay. Thank you, Mr. Chairman. I yield the 
balance of my time.
    Dr. Snyder. Ms. Sanchez for five minutes.
    Ms. Sanchez. Thank you, Mr. Chairman. You know, when we put 
up the DTS project it was really to standardize and to really 
be able to have people do end-to-end travel within the 
Department. Mr. Khan, is that really happening? Does this 
system really have the potential, in your opinion, to be able 
to do that? And how do we get from where we are right now using 
legacy systems and 27 percent of the people off of the system 
to really having what my service members and others say go to 
the system and be able to get their travel done all sitting 
down at one point?
    Mr. Khan. I mean the system certainly has the potential to 
be to handle end-to-end travel. However, based on our work, our 
concern is being able to capture what the user requirements 
are, which is going to give it the functionality to enable it 
to do that end-to-end travel. There are some deficiencies in 
how that information is captured and how the testing is 
proceeded with. So there is a risk that some of the user 
requirements may not end up in the functionality of the system.
    Ms. Sanchez. I don't understand what you meant by that. Can 
you explain more? Did you understand that comment? The 
functionality, how it would be caught in the functionality of 
the system? Explain to me what you mean by that.
    Mr. Khan. By how the system is going to be used. That is 
based on user requirements.
    Ms. Sanchez. I see. Okay. Okay. Thank you for clarifying 
that for me. I was struck by something that you said, your 
second to the last sentence, and I didn't get a chance to write 
it all down because I was listening to the question that the 
chairman had. You said that we could save billions of dollars 
if we had standardization. What do you mean by that? And can 
you give us examples of what you are talking about in billions 
of savings if we standardized? What standardization? I thought 
that is what we were doing in DTS.
    Mr. Khan. Right. That I mean was at the end of my statement 
was more meant across DOD itself, standardizing other business 
processes. But as far as it relates to DTS or the Defense 
travel, it is standardizing the process so it will eliminate 
the need for using legacy travel systems.
    Ms. Sanchez. Okay. And my last question to you has to do 
with unused tickets. Can you walk us through what did you find 
with respect to unused tickets? And what would be the solution 
to get those back into the system and get those credited?
    Mr. Khan. That was a finding in our prior report in 2006. 
When tickets were purchased centrally and they were not used by 
the traveler, there was a possibility, and we did find 
evidence, that refund was not obtained by the Department 
itself. And one of our recommendations was that they put in 
controls so that if the tickets were unused there was a method 
to claim refund from the airlines. Based on our recent work, it 
appears that they have put in processes where the Travel 
Management Office or the Commercial Travel Office (CTO) will be 
able to generate reports and be able to claim this money back 
from the airlines. That is an intended policy, and I would 
defer to my friends from the DTMO and the BTA to confirm that.
    Ms. Sanchez. Is that happening in your opinion?
    Ms. Mitchell. That is correct. That is happening. Another 
important thing to note is that paper tickets are almost gone. 
And that really has been the larger source of the problem, 
because the paper ticket requires the individual traveler to 
turn that back in so that reimbursement can be processed. With 
electronic tickets, the CTOs are required by our contracts 
after 30 days--first of all, they can see what ticket has not 
been used through their systems and that they have no longer 
than 30 days to process those for refund. And we get regular 
reports from them so that we may check that.
    Ms. Sanchez. So on a foreign travel ticket you are no 
longer requiring that it be a paper ticket?
    Ms. Mitchell. Well, unfortunately it isn't up to us to 
request that. We prefer electronic tickets because we do have 
an automated means of tracking them. But there are some 
locations, I believe--and I will take this, but I believe 
Turkey, for example, still requires paper tickets. But for 
example, a recent check with the Commercial Travel Office 
providing support to Army indicated that less than one percent 
of all the tickets being issued to Army travelers were still 
paper.
    Ms. Sanchez. Okay. Thank you, Mr. Chairman.
    Dr. Snyder. Ms. Davis for five minutes.
    Mrs. Davis. Thank you, Mr. Chairman. And I am sorry, I am 
going to have to leave right after this question. But Ms. 
Mitchell, I think one of the issues raised particularly by the 
GAO was how the legacy travel systems are actually funded, from 
what accounts they are funded from. I am not sure, I don't 
think I heard your answer to that before. Can you be specific 
about that? Where are they being funded from?
    Ms. Mitchell. Ma'am, I do not have the answer to that 
question. I will have to take it for the record.
    [The information referred to can be found in the Appendix 
on page 86.]
    Mrs. Davis. Why don't we know that?
    Ms. Mitchell. They are not centrally managed. They are 
managed by the individual components who use them. And 
unfortunately, I would have to say that we are also frustrated 
in not being able to obtain the information in a timely manner.
    Mrs. Davis. Is there sort of a ballpark idea of where they 
are funded from, or is it just actual single line accounts? Mr. 
Khan, you looked at this issue. How do you think we, in your 
capacity, can try to get to that answer?
    Mr. Khan. We were somewhat puzzled as well. We weren't able 
to get the information how they were funded. We looked at the 
budget and some of the additional reports there are which DOD 
has, but we were not able to get any visibility as to how they 
were funded. I don't have an answer for that.
    Mrs. Davis. Do you have any thoughts about that, Mr. 
Fisher? Any thoughts about why that is so difficult to look at? 
Is there something inherently classified about that?
    Mr. Fisher. I honestly don't know. It is beyond our purview 
and our role in managing the DTS program. So I don't have any 
visibility into the other systems. Our focus is exclusively on 
the DTS system. So I don't have any visibility to that.
    Mrs. Davis. Okay. Thank you. One question would really be 
whether it is realistic or not for all travel to be 
consolidated within DTS. Is it realistic to do that, or are all 
the issues that you have identified as problematic, do they 
constitute an impossibility or--I still am having a little 
trouble, too, understanding why this doesn't come together a 
little more easily.
    Mr. Fisher. So I believe--oh, I was going to give a 
suggestion that there will be some elements of DOD travel that 
it may not be cost-effective to build into the capability, the 
tool. We have had a discussion about PDT, permanent duty travel 
change. For the military, there is about 700,000 of those trips 
a year. That is a fairly significant number. And it is 
certainly cost-effective for us to implement that capability in 
the tool, and we are doing that this year.
    It will be released in the fall. Civilian PDT, which has 
different rules, would require a different set of requirements 
and implementation, there is only about 30,000 or 33,000, I 
believe of those each year. So the cost-effective element of 
that, what it would cost us to enable that capability in the 
tool versus the savings that we would have doesn't put it on 
our priority list to get that done right now.
    I believe as Ms. Mitchell said, we will have 66 of the 73 
trip types in place by the end of 2009. Of the balance, there 
is a couple that we probably won't do because there are not 
enough of them to warrant the investment in the tool to 
automate that capability. But as we continue to add more trip 
types, obviously the expanded universe of travel that can be 
handled within the tool will expand, as will the savings will 
accrue.
    Mrs. Davis. Mr. Khan. Because part of the question we are 
trying to get there by 2013, is that right, to try and 
eliminate most of the legacy systems? Mr. Khan, did you want to 
comment? I am sorry.
    Mr. Khan. Our issue is kind of getting to the metrics 
itself. When we were doing the analysis we could not find a 
complete list of what the legacy systems were. So it was a big 
question as to, if there wasn't an identified baseline of how 
many legacy systems were, then it would be difficult to say 
when they would all be put out of service. Like Ms. Mitchell 
did say----
    Mrs. Davis. That would be difficult to do, I would agree 
with you, if you don't know what they are.
    Mr. Khan. Right. Like Ms. Mitchell did mention, they have 
sent over a list, and we will be having a meeting with them 
just to make sure that we understand what those existing 10 
legacy systems she referred to there are. And then we can 
follow up from there.
    Mrs. Davis. Thank you. One other question just to follow 
up, Mr. Chairman. Is every attempt to do teleconferencing when 
it is possible? It seems today that there really are ways that 
we can get a lot of work accomplished without necessarily 
having--I just don't know whether that is something that is 
pursued aggressively or whether it just doesn't work. I mean 
obviously bringing people back from the theater, I mean there 
are a lot of reasons why you have to have people engaged in 
travel. But I am just wondering whether, you know, that is a 
fairly exhaustive question that happens before----
    Ms. Mitchell. We do know that teleconferencing does work, 
and it is used. But I would not be able to tell you to what 
extent.
    Mrs. Davis. Thank you very much, Mr. Chairman.
    Dr. Snyder. Thank you, Mrs. Davis. I wanted to continue 
this discussion that was continued by Mrs. Davis about the 
legacy systems. And Mr. Khan, do we know are any of those 
legacy systems managed by contracts, by contractors? Are they 
all managed by contractors? Are they in-house? Do we know?
    Mr. Khan. I do not have this information. I can provide 
that for the record.
    [The information referred to can be found in the Appendix 
on page 85.]
    Dr. Snyder. Do you know, Ms. Mitchell or Mr. Fisher, if any 
of the legacy systems are managed by contract?
    Ms. Mitchell. No, Mr. Chairman, I do not know.
    Mr. Fisher. Again, I don't have insight into those legacy 
systems.
    Dr. Snyder. Now, you used that phrase a little bit ago, Mr. 
Fisher, about no visibility into the legacy systems. But if I 
am trying to put together a travel system and I have got a 
group of people that we think are in the several hundred 
thousand range that apparently are liking the other systems 
better, I would think you would want to get some visibility 
into those systems to find out what they are doing that you all 
are not doing.
    Mr. Fisher. Well, so let me characterize again an element 
of why some people aren't using DTS. In many cases, it is 
because DTS does not yet provide the capability for those types 
of travel.
    Dr. Snyder. No, I understand that. I am not talking about 
those. I am talking about the ones that have the mandate that 
aren't using it.
    Mr. Fisher. Again, our focus is on DTS and making that 
capability available. What is done in the legacy systems other 
than the capability, which we are cognizant of the types of 
travel that DTS doesn't deliver yet, that clearly is something 
that is resident in some of the legacy systems. On the 
usability side, again, our intent is to make DTS the, as Ms. 
Mitchell said, preferred usage tool so that they are not only 
mandated to use it, they will want to use it. And that is our 
focus.
    Dr. Snyder. Right. Mr. Khan, a number that we throw around 
is we think it is about a billion dollars a year or so that in 
the legacy systems. Is that a fair guesstimate?
    Mr. Khan. We were not able to get any information--not a 
lot of information on how much was being spent on legacy 
systems. However, we do know--I mean, they need money to 
sustain and operate. And also the other concern is the use of 
manual voucher processing, which most of the legacy systems do 
require. I mean, that diminishes the cost savings.
    Dr. Snyder. So most of the legacy systems use the manual 
voucher, which is about over $40 more per voucher to process?
    Mr. Khan. About 35 approximately, correct.
    Dr. Snyder. $35 more?
    Mr. Khan. Right.
    Dr. Snyder. Paid for by the taxpayer. It is perplexing. I 
don't know how to get a handle on that. We are interested in 
the Defense Travel System, and you are saying that that is your 
area of expertise. It sounds like a lot of the inefficiency 
right now is in the legacy system side of it because they 
haven't moved over to the DTS. Now you all have a 
responsibility to make the system available, and we have talked 
about that. But the longer--we are now saying 2013, another 4 
years at $35-plus a pop wasted every time a paper voucher goes 
through, it just seems like that is a huge chunk of money, yet 
we don't even know who these people, computer, some old 
remnant. I don't know, it is the strangest dang thing I have 
seen around here. Maybe, Mr. Khan, you can get a handle on 
that. We may need to revisit this again here in the next month 
or two to try to sort this out. Because maybe it would be 
helpful to the DTS to try to sort out exactly who are these 
systems, who are these mystery people that we can't even seem 
to get an accurate list of that seem to change day by day 
exactly what the list of them is. Did you have another comment, 
Mr. Khan?
    Mr. Khan. I was going to say that as Ms. Mitchell did say, 
we did receive a list from them, which appears to be a pretty 
final scrub of what the legacy systems are. So we will continue 
with our analysis on that one. So that will help to answer some 
of the questions that you have.
    Dr. Snyder. Mr. Khan, when you do these calculations as the 
Government Accountability Office, formerly the General 
Accounting Office, does it enter into your discussions, and I 
will ask the same questions to you, Ms. Mitchell and Mr. 
Fisher, the amount of hours it takes or the amount of time it 
takes somebody sitting at their desk during work hours to work 
themselves through the system? Has anybody done any studies on 
exactly how long it takes to do the system, the DTS system?
    Mr. Khan. Our focus was more looking at the quantitative 
numbers itself as opposed to the time spent on processing.
    Dr. Snyder. Dr. Moore, did you touch on that in your study?
    Dr. Moore. For the samples when we surveyed, we do have 
statistics on that, how long it takes by various groups and for 
various tasks. But that is just a sample. It is not 
extrapolated.
    Dr. Snyder. So what was it for the travelers what was it?
    Dr. Moore. Let me look at that for you. The average time 
for updating and routing was 8\1/2\ minutes. These are all in 
the minutes. And less than 10 minutes for the various tasks.
    Dr. Snyder. So if somebody sits down there and they just 
found out they have to go somewhere it is about less than 10 
minutes to put the whole trip together?
    Dr. Moore. Well, that is for the individual components of 
the tasks. There may be two or three tasks associated with 
getting a trip together. So it could vary from somewhere--say 
between 10 minutes and 20 minutes maybe total. Again, that is 
based on what we--the folks we tested.
    Dr. Snyder. All right. Ms. Mitchell--I am sorry, my time is 
up, Mr. Wittman.
    Mr. Wittman. Thank you, Mr. Chairman. Dr. Moore, I want to 
follow up a little bit more on LMI's study there and the 39 
performance-based scenario recommendations that you all make. 
And you heard a little bit earlier Ms. Mitchell talk about 
phasing them in, and the first phase of usability and second 
phase of usability. Are you aware of if those phasings have 
been based on the importance of your recommendations or the 
ranking of your recommendations? And if not, would you make a 
recommendation as to which ones are most important in the phase 
of implementation?
    Dr. Moore. We identified the ones that we thought were of 
the greatest hit value, and some of them, in fact, have 
actually been already completed. For example, one was the 
ability to cancel travel was quite difficult. And that was a 
quick fix. DTMO made that immediately almost on that. So that 
took one part of the problem out. And from what we know, and we 
have not been intimately involved in the scheduling of the 
activities, but of what we have seen on that, they have been 
based on the high priority ones that will provide the greatest 
benefit quickest.
    Mr. Wittman. So from what you know, you are in agreement 
with the implementation of those based on the ranking of 
importance?
    Dr. Moore. Yes, sir.
    Mr. Wittman. Okay. Very good. Also in your study it 
recommends that DOD should encourage DTS users to prepare their 
own travel documents. And I was wondering if you found that 
reliance on legacy systems affected the traveler's ability to 
prepare documents in DTS. And again, we go back to that whole 
issue of trying to get our arms around what is going on with 
legacy systems. Is there an artifact there that is, you know, 
holding people onto those instead of getting them over to the 
DTS system?
    Dr. Moore. There likely could be. We did not look at that 
in our study. Our study was confined to basically testing the 
specific functionalities of DTS.
    Mr. Wittman. Okay. Thank you, Mr. Chairman. I will yield my 
time.
    Dr. Snyder. I wanted to ask--I am not going to ask a 
question about the legacy systems. You will be glad to know 
that. I wanted to ask about--I am not sure if it is a conflict 
in information or not--but in your-all's written statement, Ms. 
Mitchell and Mr. Fisher, on page 7, you have a higher 
satisfaction reporting of--I guess 69 percent of DTS users find 
the system easy to use. This is your QuickCompass survey. Dr. 
Moore's is a more negative 42 percent. Would you describe for 
me, please, the QuickCompass survey? Is that something that 
people complete at the end of having done the process? Or what 
do you think of the 42 percent and, Dr. Moore, what do you 
think of their numbers?
    Ms. Mitchell. The QuickCompass survey is a scientific 
polling methodology that is Web-based that is sent to a sample 
that is statistically set by the Defense Data Management 
Center. And it had a great return rate of 39 percent. It 
targeted a variety of travelers, from less experienced to more 
experienced. And we were, of course, very happy to see those 
numbers.
    But let me comment on what we think the difference is 
between those numbers and what we saw in the LMI survey. We 
wanted to do the LMI survey because we really wanted to find 
out the difficulties that people were having with the system if 
they were sitting in a lab environment, which essentially they 
were for the LMI study, unable to talk to fellow travelers, to 
Defense administrators, unable to call the assistance center 
for help. And so we have, I think, what is a very--it is not 
quite a sterile condition, but it is a more sitting by yourself 
trying to do something as opposed to be being able to reach out 
to others for help. So I would suggest that that accounts for 
the differences. But that is exactly what we wanted to target 
and to find out, because that helps us determine what we really 
can do to help travelers across the board.
    Dr. Moore. Mr. Chairman, I would agree with that in our 
study was designed in conjunction with DTMO to provide probably 
the worst-case scenario in terms of determining usability. What 
I mean by that is the only assistance beyond looking at a 
screen that was available was the help function within the 
software. So there was no ability to call the help desk number. 
There was no availability to call co-workers or anybody else. 
So this was kind of the worst case situation where somebody was 
sitting in a room somewhere and they didn't have the ability 
with a landline to get a hold of a help desk, nor could they 
ask anybody else. It is not surprising to me that the numbers 
would be higher if they were given some other capabilities.
    Dr. Snyder. The sampling that was done, Ms. Mitchell, was 
that of people who had completed travel? What was the universe 
from which your sample was selected for the QuickCompass 
survey?
    Ms. Mitchell. Travelers, yes. When I say ``travelers,'' I 
mean the universe of people. There may have been 
administrators, there may have been travelers, everyone who 
using the DTS system.
    Dr. Snyder. So if someone started with the DTS system and 
got ticked off and said the guy right down the hall is using 
this other system, he probably wouldn't use the word ``legacy 
system,'' but I am going to use the one that the guy down the 
hall used because he said it worked better, that would not show 
up in your QuickCompass survey, would it?
    Ms. Mitchell. It would not.
    Dr. Snyder. The numbers are real numbers. This is in 
measure Khan's statement that in 2008, the Army processed 1.5 
million vouchers, 1.1 million were done by DTS, but 400,000 
were not. The numbers are significant, and of that you 
acknowledged we don't know of those 400,000 how many people 
would have had no choice to go through the legacy system, 
versus how many people DTS and got dissatisfied and went a 
different direction. Can that be a factor, too, in why your 
results are different from Dr. Moore's? Or am I overreading 
your sampling?
    Dr. Moore. I think the fundamental difference is there are 
the differences we talked about in terms of the ability to get 
assistance. But whenever you mix the other category of users, 
the 42 percent is just for travelers, it is not for the other 
three administrative functions. Those had higher success rates. 
If you put them all together, you come up with a blended rate 
that is higher.
    Dr. Snyder. I wanted to ask, the 24-hour help line, what do 
you call that line?
    Ms. Mitchell. It is the travel assistance center.
    Dr. Snyder. The travel assistance center, how is that 
going?
    Ms. Mitchell. That has been very well received. I would let 
you know that the one of the Air Force principals commented 
that it is the best thing that we have done.
    Dr. Snyder. Who administers that?
    Ms. Mitchell. The Defense Travel Management Office has 
oversight of it, and it is managed for us by Space and Naval 
Warfare Systems Command (SPAWAR), an element of the Navy. And 
it is contractor staffed, largely.
    Dr. Snyder. Is there a call center somewhere that takes in 
all of the calls?
    Ms. Mitchell. Yes, sir. The call center is located in 
Chesapeake.
    Dr. Snyder. And how do you test the quality of the answers 
that they give?
    Ms. Mitchell. Every call is recorded. They have a special 
system in place that does that. We are also down there 
frequently listening in. I have listened in to some of the 
conversations myself. I have been very favorably impressed. We 
also do a survey that we just implemented this past fall. It is 
not particularly scientific. It is giving folks the opportunity 
to comment. And again, the results have been very good. The 
reception has been very acceptable to the travel assistance 
center.
    Dr. Snyder. Thank you. Mr. Wittman.
    Mr. Wittman. I wanted to follow up on some of the 
chairman's questions. I will go back into some of the legacy 
systems questions. You talk about not being able to get your 
arms around where the legacy systems are still in use. Is there 
a way that we can get that information? Is it fragmented 
through different branches? How would we go about getting the 
information to get the full scope where the legacy systems are 
being used and how they are being used so we can look at maybe 
trying to find a way to get our arms around phasing everybody 
into the DTS. So we are looking at whatever attributes are 
there in the legacy systems that we maybe ought to be putting 
in the DTS so we sort of push people towards the DTS system?
    Ms. Mitchell. The legacy systems, we do know for the most 
part who is using them. And, for example, I can tell you that 
there is a system called WINIATS, that is a computation module, 
and it does process travel, and that is used by the Army, for 
example, as well as one of the other services and some 
agencies. But it also has additional modules that do other 
sorts of financial functions that I am not particularly 
familiar with.
    As I noted earlier, we have gone to the services and asked 
them to validate the list. We will certainly go back again and 
ask again and see if we can sit down with them and really get 
to fine level of detail on specifically what each system costs 
and where it is used.
    Mr. Wittman. I think that would be valuable to try to 
figure out exactly how the systems are used, why they are still 
in place, is there a lack of function with DTS that these 
systems are trying to replace, or is it just a personal 
preference? If we can maybe drill down and figure out those 
reasons, we might be able to actually start to get rid of those 
legacy systems. But the only way is to figure out where they 
are, how they are being used and why they are being used. That 
would be a great piece of information for us to obtain.
    I want to talk a little bit about premium travel and if DOD 
is able to identify when premium travel is used and when it is 
paid for by DOD versus when it is paid for by the traveler, in 
other words, if they have points to upgrade, and under what 
conditions does the Department authorize and pay for premium 
travel and how do you all audit and track when premium travel 
is used and how it is authorized to make sure that it is not 
being abused?
    Ms. Mitchell. First of all, we do not have visibility as to 
when the Department pays. Well, we know when the Department 
pays, but we don't have visibility as to who specifically 
upgrades using frequent flyer miles, for example.
    We do have a process in place. We receive information from 
the commercial travel offices to monitor who is flying premium 
travel, both first and business class, and we receive reports 
that enable us to do that. We are looking for more automated 
ways to do that. One of the big challenges that we have is the 
fact that there is no standardization of codes used by the 
airlines that indicate a premium travel seat. So that makes 
things very complex. And to add to that, the airlines over time 
change their codes. So we are looking at sort of almost what 
you can think of a carousel of codes to try to nail that down.
    We also have some tools in place for the services to note 
when they have approved premium travel. We take the feedback 
that we get from the commercial travel office, those reports, 
and we share them with the services and do a cross-check in 
that way to ensure that what the Department has paid for has in 
fact been approved.
    You asked under what circumstances we permit premium 
travel. There are two really that are the largest ones. One is 
medical. Someone perhaps has a bad back and cannot make a 14-
hour trip sitting in coach. We know it is hard enough for those 
of us without bad backs. And the second falls under the 
category of mission. There is a critical meeting that is going 
to occur, there is no coach seat available and the person has 
to fly in order to get to that meeting. Those are two primary 
examples.
    Mr. Wittman. Mr. Chairman, I yield back the balance of my 
time.
    Dr. Snyder. Mr. Fisher, I wanted to ask one very specific 
question. Currently how many types of travel are there total?
    Mr. Fisher. There are 73 total trip types for the 
Department.
    Dr. Snyder. And how many currently is DTS handling?
    Mr. Fisher. There are 27, and those were prioritized based 
on the volume.
    Dr. Snyder. I think what you said was you are not going to 
get to all 73 because the numbers would be too small. Do you 
have a sense how many more you know for sure you are going to 
do?
    Mr. Fisher. We have plans to implement this year, we have a 
summer release that is going to add 34, so that will bring us 
up to 61 TDY.
    By the end of 2009, we will have 5 more are predominantly 
permanent duty travel for the military related to PDT which 
will bring us up to 66 of the 73. So by the end of calendar 
year 2009, based on our implementation plans, we will be at 66.
    There are a couple more that we are looking at, there is 
deployment travel and elements of deployment travel that are 
incredibly complex with lots of business rules. Those will not 
be done by 2009, it will be more 2010 time frame, and then you 
have the cats and dogs that may not be cost efficient.
    Dr. Snyder. I appreciate all of you taking your time today. 
I anticipate that we will revisit this topic formally a year 
from now. My guess is that we will want to do something in the 
next month or two, or whenever we get more information about 
this legacy system. It seems like we have this billion dollar-
plus hole that we don't know anything about. So we will be in 
touch with all of you, particularly you, Mr. Khan, in terms if 
you are able to sort out who these legacy systems are, who 
manages them, how they are paid for and the total amount of 
money. The bottom line is we talked about the mandate which 
went out to all the joint chiefs and all the secretaries and 
everyone in authority saying you have to use the DTS system. 
And the reason they have said that is because it is $35 a pop 
per voucher when they don't, and we still don't have a handle 
on how many are not. Maybe that can help in some way. Thank you 
all for being here today. Thank you, Mr. Wittman. We are 
adjourned.
    [Whereupon, at 2:13 p.m., the subcommittee was adjourned.]



=======================================================================




                            A P P E N D I X

                             March 5, 2009

=======================================================================





=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 5, 2009

=======================================================================



    [GRAPHIC] [TIFF OMITTED] 48797.001
    
    [GRAPHIC] [TIFF OMITTED] 48797.002
    
    [GRAPHIC] [TIFF OMITTED] 48797.003
    
    [GRAPHIC] [TIFF OMITTED] 48797.004
    
    [GRAPHIC] [TIFF OMITTED] 48797.005
    
    [GRAPHIC] [TIFF OMITTED] 48797.006
    
    [GRAPHIC] [TIFF OMITTED] 48797.007
    
    [GRAPHIC] [TIFF OMITTED] 48797.008
    
    [GRAPHIC] [TIFF OMITTED] 48797.009
    
    [GRAPHIC] [TIFF OMITTED] 48797.010
    
    [GRAPHIC] [TIFF OMITTED] 48797.011
    
    [GRAPHIC] [TIFF OMITTED] 48797.012
    
    [GRAPHIC] [TIFF OMITTED] 48797.013
    
    [GRAPHIC] [TIFF OMITTED] 48797.014
    
    [GRAPHIC] [TIFF OMITTED] 48797.015
    
    [GRAPHIC] [TIFF OMITTED] 48797.016
    
    [GRAPHIC] [TIFF OMITTED] 48797.017
    
    [GRAPHIC] [TIFF OMITTED] 48797.018
    
    [GRAPHIC] [TIFF OMITTED] 48797.019
    
    [GRAPHIC] [TIFF OMITTED] 48797.020
    
    [GRAPHIC] [TIFF OMITTED] 48797.021
    
    [GRAPHIC] [TIFF OMITTED] 48797.022
    
    [GRAPHIC] [TIFF OMITTED] 48797.023
    
    [GRAPHIC] [TIFF OMITTED] 48797.024
    
    [GRAPHIC] [TIFF OMITTED] 48797.025
    
    [GRAPHIC] [TIFF OMITTED] 48797.026
    
    [GRAPHIC] [TIFF OMITTED] 48797.027
    
    [GRAPHIC] [TIFF OMITTED] 48797.028
    
    [GRAPHIC] [TIFF OMITTED] 48797.029
    
    [GRAPHIC] [TIFF OMITTED] 48797.030
    
    [GRAPHIC] [TIFF OMITTED] 48797.031
    
    [GRAPHIC] [TIFF OMITTED] 48797.032
    
    [GRAPHIC] [TIFF OMITTED] 48797.033
    
    [GRAPHIC] [TIFF OMITTED] 48797.034
    
    [GRAPHIC] [TIFF OMITTED] 48797.035
    
    [GRAPHIC] [TIFF OMITTED] 48797.036
    
    [GRAPHIC] [TIFF OMITTED] 48797.037
    
    [GRAPHIC] [TIFF OMITTED] 48797.038
    
    [GRAPHIC] [TIFF OMITTED] 48797.039
    
    [GRAPHIC] [TIFF OMITTED] 48797.040
    
    [GRAPHIC] [TIFF OMITTED] 48797.041
    
    [GRAPHIC] [TIFF OMITTED] 48797.042
    
    [GRAPHIC] [TIFF OMITTED] 48797.043
    
    [GRAPHIC] [TIFF OMITTED] 48797.044
    
    [GRAPHIC] [TIFF OMITTED] 48797.045
    
?

      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                             March 5, 2009

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] 48797.046
    
    [GRAPHIC] [TIFF OMITTED] 48797.047
    
    [GRAPHIC] [TIFF OMITTED] 48797.048
    
    [GRAPHIC] [TIFF OMITTED] 48797.049
    
    .eps[GRAPHIC] [TIFF OMITTED] 48797.050
    
    .eps[GRAPHIC] [TIFF OMITTED] 48797.051
    
    .eps[GRAPHIC] [TIFF OMITTED] 48797.052
    
    .eps[GRAPHIC] [TIFF OMITTED] 48797.053
    
.eps?

      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             March 5, 2009

=======================================================================

      
              RESPONSE TO QUESTION SUBMITTED BY DR. SNYDER

    Mr. Khan. On March 5, 2009, I testified before your Subcommittee on 
the Department of Defense's actions to implement our prior 
recommendations related to the Defense Travel System (DTS).\1\
---------------------------------------------------------------------------
    \1\ GAO, DOD Business Transformation: Status of DOD's Actions on 
Previous Recommendations for the Defense Travel System, GAO-09-416T 
(Washington, D.C.: Mar. 5, 2009).
---------------------------------------------------------------------------
    This letter responds to a question that you asked us to answer for 
the record. The question and our response follow.
    Mr. Khan, are the legacy travel systems used instead of DTS managed 
by contractors or in-house at the Department? If managed by 
contractors, what are the costs of these contracts?
    Based on information they have provided us, all of the legacy 
systems used by the military services to manage travel, with the 
exception of one, are owned and managed by the military services.\2\ 
The one exception is the Windows Integrated Automated Travel System 
(WINIATS), which is a legacy travel system operated in house by the 
Defense Finance and Accounting Service (DFAS) to process manual travel 
vouchers. According to DFAS, a contractor owns the WINIATS travel 
management software program, but the federal government owns the data 
and the operating hardware. DFAS advised us that it had paid the 
contractor over $2 million in fiscal year 2008 for the right to use the 
software and incurred an additional $1.3 million of in-house operating 
cost for a total annual system cost of approximately $3.3 million. The 
contract is a fixed-fee 1-year contract with four 1-year options. 
Currently, the contract is on an extension pending negotiation of a new 
contract for 1 year (2009) with four 1-year options for renewal.
---------------------------------------------------------------------------
    \2\ At a March 12, 2009 meeting, the military services stated that 
the following systems are used to manage travel--the Army (the Regional 
Level Application Software, the Army Orders and Resource System, the 
Automated Fund Control and Order System, and the Corps of Engineers 
Financial Management System; the Navy (the Naval Reserve Order Writing 
System, the Naval Facilities and Engineering Command/Enterprise 
Administrative Management Information System, and the Windows Automated 
Travel Order System and Automated Travel Order System Plus Afloat and 
Ashore, the Reserve Order Writing System; and the Air Force (Web 
Intensive New Gain System for ROTC, the Air Force Order Writing System, 
and the Reserve Travel System).
---------------------------------------------------------------------------
    As of April 1, 2009, the Navy confirmed that it owns the 
intellectual rights and hardware related to the four legacy systems it 
uses to manage travel--the Naval Reserve Order Writing System (NROWS), 
the Naval Facilities and Engineering Command/Enterprise Administrative 
Management Information System, the Windows Automated Travel Order 
System and Automated Travel Order System Plus Afloat and Ashore 
(WinATOS/ATOS), and the Reserve Order Writing System (ROWS). According 
to Navy, three of these four Navy systems--NROWS, WinATOS/ATOS, and 
ROWS--are operated jointly by the government and contractor personnel. 
The Navy has not yet provided us the cost associated with contractor 
personnel operating three of their systems and the terms of those 
contracts. Further, we have not yet received information requested from 
the Army or Air Force regarding whether their systems are operated by 
government or contractor personnel, or both, the costs associated with 
systems managed by contractors, and the specific terms of the contract. 
In addition, based upon information provided by the Defense Travel 
Management Office, 35 of the 44 defense agencies and joint commands 
have stated that they are using DTS and do not have any legacy systems 
to manage their travel operations, as of April 7, 2009. Regarding the 
remaining nine activities, one defense agency--the National Geospatial-
Intelligence Agency--reported that they use WINIATS for civilian 
permanent change of station travel. In addition, the United States 
Transportation Command uses a system called the Global Air 
Transportation Execution System to support passenger and cargo movement 
on both chartered and military aircraft. The Defense Travel Management 
Office told us they are following up with the remaining seven entities 
to identify the specific systems used for processing travel. We will 
provide the Subcommittee staff with any additional information we 
receive from the department. If you or your staff have questions about 
our response to this question, please contact me. [See page 16.]
                                 ______
                                 
             RESPONSE TO QUESTION SUBMITTED BY MR. WITTMAN
    Ms. Mitchell. The cost estimate for the second phase of the 
usability release will be available during the third quarter of Fiscal 
Year 2010. I will be happy to provide the cost estimate to the 
Subcommittee as soon as it becomes available. [See page 12.]
                                 ______
                                 
              RESPONSE TO QUESTION SUBMITTED BY MRS. DAVIS
    Ms. Mitchell. Defer to the Services for information on their legacy 
systems. The Service Secretaries have received individual letters from 
the Committee (attached) in this regard and will respond directly. [See 
page 15.]
    [The letters referred to can be found in the Appendix beginning on 
page 75.]
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             March 5, 2009

=======================================================================

      
                   QUESTIONS SUBMITTED BY DR. SNYDER

    Dr. Snyder. The Department stated that to enhance the user-
friendliness of DTS, it plans to implement two phased ``usability 
releases'' in 2010 and 2011. For the DTS usability release planned for 
2010, the Department estimated that the cost would be about $4 million. 
What is the cost estimate for the second phase of the usability 
release, planned for 2011?
    Ms. Mitchell. The cost estimate for the second phase of the 
usability release will be available during the third quarter of Fiscal 
Year 2010. I will be happy to provide the cost estimate to the 
subcommittee as soon as it becomes available.
    Dr. Snyder. The shift from paper tickets to electronic tickets will 
help the Department decrease travel costs. What percentage of DOD 
travelers are currently using paper tickets? In what circumstances are 
travelers required to use paper tickets? Is there a Department policy 
mandating the use of e-tickets where possible?
    Ms. Mitchell. Current use of paper tickets in the DoD is rare, 
affecting approximately 1.2% of travelers. Their use is necessary only 
when an airline does not have electronic ticketing capability, either 
because it does not exist for a particular destination or is 
temporarily unavailable because of airline ticketing system problems. 
Some examples include Algeria and Brazil where paper airline tickets 
are required for all in country travel, and paper tickets are required 
when traveling on Saudi Arabia Airlines as part of a code share 
agreement with Gulf Air. Airlines are working to resolve these 
challenges to achieve 100% electronic ticketing capability.
    There is no Department policy mandating the use of e-tickets. 
However, the Department's commercial travel office contracts do 
stipulate that electronic ticketing is the preferred method of ticket 
issuance for DoD travelers.
    Dr. Snyder. GAO's scrutiny of the DOD budget revealed that only 3 
legacy travel systems are identified in DOD's budget. How many legacy 
systems are currently used by the Department and the Services, and what 
are the funding accounts for each of these legacy systems?
    Ms. Mitchell. Defer to the Services for information on their legacy 
systems. The Service Secretaries have received individual letters from 
the Committee (attached) in this regard, and will respond directly.
    [The letters referred to can be found in the Appendix beginning on 
page 75.]
    Dr. Snyder. Significant cost savings can be achieved by using 
teleconferencing instead of travel where possible. What is the DOD 
policy on using teleconferencing versus travel? How is it enforced?
    Ms. Mitchell. The Joint Federal Travel Regulations and the Joint 
Travel Regulations require consideration of alternatives to travel when 
the ``mission can be achieved by some other means.'' When a 
teleconference is deemed more cost effective than travel, the decision 
is made locally by the command and is based on mission need and 
availability of teleconference facilities.
    Dr. Snyder. Are the legacy travel systems used instead of DTS 
managed by contractors or in-house at the Department? If managed by 
contractors, what are the costs of these contracts? Please provide a 
detailed explanation for each legacy system.
    Ms. Mitchell. Defer to the Services for information on their legacy 
systems. The Service Secretaries have received individual letters from 
the Committee (attached) in this regard, and will respond directly.
    [The letters referred to can be found in the Appendix beginning on 
page 75.]
    Dr. Snyder. The Subcommittee staff requested that the Department 
provide cost information for DOD's travel enterprise prior to the March 
5, 2009, hearing. The Department informed the staff that the actual 
cost of DOD's travel enterprise for fiscal year 2008 will not be 
available until the full President's budget is released and Object 
Class 21 information is made public. The Subcommittee has access to 
non-publicly available information and requests that the cost 
information for fiscal year 2008 and fiscal year 2009 be provided 
immediately.
    Ms. Mitchell. The figures below are preliminary. I will be happy to 
provide final figures when they become available.

    --  Estimated FY 2008 spend for the travel and transportation of 
persons: $10.4 billion

    --  Estimated FY 2009 budget for the travel and transportation of 
persons: $9.2 billion

    Dr. Snyder. Given the LMI survey finding that only 42% of travelers 
could successfully book a trip, there is an imminent need for the 
usability problems within DTS to be fixed. Please provide a detailed 
explanation for the plans to address the usability problems within DTS, 
including time frames. Also, how many of the 39 system changes 
recommended in the LMI study has the Department already implemented? 
What are the Department's plans to implement any outstanding 
recommendations?
    Mr. Fisher. The Department plans to address all 39 recommendations 
documented in the LMI Usability Review of the Defense Travel System 
(DTS). Two of the LMI recommendations have already been implemented.
    In concert with the LMI Usability Review, the Department identified 
a series of essential system improvements directly related to usability 
through an on-going customer initiated change request process. These 
change requests were prioritized, approved through the defense travel 
governance process, and targeted for release in February 2010.
    The LMI review, completed in October 2008, produced a set of 39 
recommendations. Because DTS usability improvements were already 
underway as part of the usability improvement plan, the previously 
identified change requests and the 39 LMI recommendations were jointly 
reviewed and streamlined (where possible) to take advantage of existing 
usability work and reprioritized to optimize the impact of the 
Department's improvements to DTS usability.
    Based on the results of the review and reprioritization, the 
Department adopted a two-phased approach to improve DTS usability that 
includes both the customer change requests and the 39 LMI 
recommendations. The first phase, Usability I, focuses on enhancements 
to help prevent common traveler mistakes and is planned for release in 
February 2010. The second phase, Usability II, includes a redesign of 
the DTS user interface based on direct input from the DTS user 
community and is scheduled for release in May 2011.

                                  <all>

</pre></body></html>
